9
%

No.

IN THESUPREME COURT OF THE UNITED STATES
LEE GOSTON A.D.C. # 105879

PETITIONER

VS.
DEXTER PAYNE

RESPONDENT(S)

DIRECTOR OF ARKANSAS
DEPARTMENT OF CORRECTION
PROOF OF SERVICE
I, LEE GOSTON , do swear or declare that on this date,
_________
3
2021 , as required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on
each party to the above proceeding or that party’s counsel, and on every other person required to
be served, by depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid, or by delivery to a thirdparty commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
1- Attorney General Leslie Rutledge: 200 Catiette Building. 323 Center ST. Little Rock. AR. 72201
2. Asst. Attorney General Pamela Pumpz 200 Catiette Building. 323 Center ST. Little Rock. AR. 72201
3. Solicitor General of U.S. 950 Pennsylvania. Room 5614. N.W. Washington DC. 20530
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

/s/

A arc h, &<?

, 2021

Pm A-3

(Signature)

18

